In the Supreme Court of the United States
No. 20-1106
JANE DOE, PETITIONER
v.
HARVARD PILGRIM HEALTH CARE, INC., AND THE HARVARD PILGRIM PPO PLAN MASSACHUSETTS, GROUP POLICY NUMBER 0588660000.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify
that petitioner’s reply brief on petition for a writ of certiorari contains 2,982 words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on May 3, 2021.
______________________
Peter K. Stris

276878.1

